No. 20-138

 

IN THE

Supreme Court of the United States

DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES,
ET AL., PETITIONERS,
v.

SIERRA CLUB, ET AL., RESPONDENTS

On Writ of Certiorari to the
United States Court of Appeals for Ninth Circuit

BRIEF OF RIO GRANDE LANDOWNERS COALITION AS
AMICUS CURIAE IN SUPPORT OF RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,195 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 19, 2021.

 

Colin Casey Hoga;
Wilson-Epes Printing Co., Inc.
